NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                  LOW INCOME CREDIT UNION
                   GRANT AND LOAN REVIEW



                          Report #OIG-08-05
                           March 21, 2008




                           William DeSarno
                           Inspector General

 Released By:                                  Auditor-in-Charge:



 James Hagen                                   Charles E. Funderburk, CPA
 Assistant Inspector General for Audits        Senior Auditor
                     TABLE OF CONTENTS


                                         Page

EXECUTIVE SUMMARY                         1

BACKGROUND                                2

PURPOSE AND OBJECTIVES                    4

SCOPE AND METHODOLOGY                     4

RESULTS                                   6

APPENDIX – MANAGEMENT COMMENTS            19
                            EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Small Credit Union
Initiatives (OSCUI) administers the Community Development Revolving Loan Fund
(CDRLF or Fund). The CDLRF offers financial assistance through loans and Technical
Assistance Grants (TAGs or grants). Congressional appropriations and income derived
from the loans fund the CDLRF program. Federal and state chartered, low income
designated credit unions may participate in CDRLF programs. As of December 31, 2006
there were 8,362 Federally insured credit unions. Of those, 1,053 are designated low
income credit unions and were eligible to apply for CDLRF assistance.

The NCUA Office of Inspector General (OIG) performed a review to determine the
following: (1) how loan and TAG funds under the CDRLF program are awarded;
(2) whether the loans and grants are awarded competitively; and (3) whether the loan and
grant program contingencies are being met. We sampled 10 of 70 CDRLF loans
outstanding, as of December 31, 2006, and 30 of 402 TAGs awarded in 2006.

In addition to meeting basic eligibility standards, both CDRLF loan and grant applicants
must meet additional regulatory and statutory criteria and provide specific information to
qualify as award participants. OSCUI staff analyzes the applications to ensure that
standards and criteria are met. In the cases we reviewed, all participating credit unions
that received loan and grant awards met the requisite eligibility requirements.
Subsequent to the award of a CDRLF loan or grant, participating credit unions must file
annual progress reports; subsequent to the award of a CDRLF grant, participating credit
unions must file an outcome summary report and an expense reimbursement request upon
completion of the award project.

Although we found that both the CDRLF loan and TAG programs generally meet the
objectives of the CDRLF, we identified some areas where improvement could be made.
The areas for improvement were concentrated in the award application and analysis
process and in the post award monitoring of CDRLF loans and grants.




                                            1
                                   BACKGROUND

The OSCUI administers the CDLRF. The Fund offers loans and TAGs, and receives its
funding from congressional appropriations and accumulated earnings. Federal and state
chartered, low income designated credit unions may participate in these programs. As of
December 31, 2006, there were 8,362 federally insured credit unions. Of those, 1,053
were designated low income credit unions which were eligible to apply and compete for
CDLRF assistance.

The table below depicts the funding history of the CDRLF:

  Fiscal Year       Appropriated        Appropriated         Approved           Approved
                      Loans               Grants              Loans              Grants
 1979 to 1996         $6,000,000                   $0        $16,400,000           $696,000
    1997                1,000,000                    0         2,261,000            215,461
    1998                1,000,000                    0         2,365,000            357,224
    1999                2,000,000                    0         1,900,000            343,549
    2000                1,000,000                    0         5,583,000            292,729
    2001                  650,000             350,000          2,657,000            369,815
    2002                  650,000             350,000          3,259,000            668,044
    2003                  700,000             300,000          1,004,997            460,242
    2004                  200,000           1,000,000          1,797,458          1,225,565
    2005                  200,000             800,000          1,669,000            949,219
    2006                         0            950,000          4,214,000          1,371,130

The CDRLF loan program is intended to support low income credit unions in:
   • Providing basic financial and related services in their communities;
   • Stimulating economic activities in communities resulting in increased income,
      and ownership and employment opportunities for low income residents; and
   • Assisting credit unions in delivering financial services and improving their long
      term growth and stability.

Loans are limited to a maximum of $300,000 per credit union with a fixed maximum
interest rate of three percent and a minimum rate of one percent, as determined by the
NCUA Board. Loans issued after January 1, 2002, carry a fixed rate of one percent.
Interest and principal are repaid on a semiannual basis beginning six months and one
year, respectively, after the initial distribution of the loan. The maximum loan term is
five years. Participating credit unions may be required to match the value, in shares, of
the loans within one year of the date of the loan. Loans may be recorded as a note
payable or a non-member deposit on the credit union’s accounting records, at the
discretion of the NCUA. Loans recorded as a note payable may be collateralized. The
loan fund operates as a revolving loan fund; that is, as credit union loans are paid off, the
proceeds are available to make new loans.




                                              2
The CDRLF TAG program is intended to assist credit unions in providing better services
to members by:
    • Improving the quality of service to members;
    • Making low income credit union operations more efficient; and
    • Stimulating economic activities in the communities served.

TAG appropriations are for a two year, September 30th fiscal year end cycle. TAG
awards, however, are made within a one year period. In 2006, OSCUI established six
grant initiatives. OSCUI budgets a certain amount of total grant funds to each initiative.
The following are the six technical assistance grant initiatives OSCUI designated in 2006:

   •   Building Internal Capacity – designed to provide funds for projects that
       improve the overall operations or financial condition of the credit union, and
       ultimately enable the credit union to better deliver services to its members. This
       grant had two opening and closing application dates with a maximum of $3,500
       and $5,000 per grant in the respective application periods.
   •   Outreach Partnering – designed to provide funds for projects that provide new
       or better services to existing members and those projects which will extend
       services to potential members and the community. This grant had an opening and
       closing application period with the maximum grant amount set at $10,000.
   •   Urgent Needs and Disaster Recovery – designed to ensure the continued growth
       and viability of a credit union with an immediate and pressing need for improving
       its financial conditions or operations. This grant is open year round with a
       maximum grant amount of $3,000.
   •   Staff, Official, Board Training – designed to provide funds for training staff,
       officers and board members of credit unions that will help improve the operations
       or financial conditions of the credit union, and ultimately enable the credit union
       to better serve its members. This grant had an open and closing application
       period with a maximum grant amount of $3,000.
   •   Voluntary Income Tax Initiative – designed to provide financial assistance to
       credit unions wishing to help existing and potential members prepare their tax
       returns. This grant has an open application date and a closing date when funds are
       exhausted for this initiative. The maximum grant amount was $2,500.
   •   Student Internships – designed to provide low income credit unions an
       opportunity to introduce college students to credit unions and credit union
       operations, in order to potentially recruit and develop the next generation of credit
       union managers. This grant has an open application date and a closing date when
       funds are exhausted for this initiative. The maximum grant amount was $6,000.

In addition to administering the CDRLF, OSCUI provides the following to small, new
and low income credit unions:
    • Direct Assistance through NCUA Economic Development Specialists (EDS);
    • Training via workshops; and
    • Partnering opportunities with various governmental agencies and
        nongovernmental organizations to identify and share innovative initiatives.




                                            3
                         PURPOSE AND OBJECTIVES
The purpose of this review was to obtain an understanding of the Office of Small Credit
Union Initiatives. Our objectives were to:
   1. Determine how CDRLF loan and grant funds are awarded;
   2. Determine if the loans and grants are competitively awarded; and
   3. Determine if there are loan and grant program contingencies and if they are met.

                        SCOPE AND METHODOLOGY
The scope of the review encompassed CDLRF loans with loan balances as of December
31, 2006, and TAGs awarded in 2006.

The review procedures included review of the following:
   • Regulatory guidance;
   • Other agency guidance and practices regarding loan and grant award processes;
       and
   • Sample of loan and grant awards.

Loan and Grant review process:

We reviewed the sampled loans and grants for credit union eligibility, application
compliance, OSCUI award analysis, and OSCUI credit union post award monitoring.

Loan sample methodology:

As of December 31, 2006, there were 70 CDRLF credit union loans outstanding with a
total cumulative balance of $7,387,171. A judgmental sample of ten loans outstanding
was selected for review with a total cumulative balance of $1,502,100.

TAG sample methodology:

There were 402 TAGs awarded for $1,371,130 during 2006. These grants comprised six
separate grant initiatives established by the agency. A judgmental sample of five grant
awards per initiative was selected for review, for a total of 30 grants. The total sampled
TAG awards amounted to $125,502. The following is the sample selection methodology
for each of the six grant initiatives:

   1. Building Internal Capacity Grants. Of the 195 Building Internal Capacity
      grants awarded in 2006, amounting to $725,996, we selected for review a
      judgmental sample of five grant awards, amounting to $18,467.
   2. Urgent Needs/Disaster Recovery Grants. Of the 33 Urgent Needs/Disaster
      Recovery grants awarded in 2006, for a total of $83,326, we selected for review a
      judgmental sample of five grant awards, for a total of $17,000




                                            4
3. Outreach and Partnering Grants. Of the 33 Outreach and Partnering grants
   awarded in 2006, amounting to $220,139, we selected for review a judgmental
   sample of five grant awards totaling $38,064.
4. Staff, Official and Board Training Grants. Of the 87 Staff, Official and Board
   Training grants awarded in 2006, for a total of $117,850, we selected for review a
   judgmental sample of five grant awards for $9,714.
5. Student Internship Grants. Of the 23 Student Internship grants awarded in
   2006, for a total of $57,500, we selected for review a judgmental sample of five
   grant awards in the amount of $12,500.
6. Volunteer Income Tax Assistance Grants. Of the 32 Volunteer Income Tax
   Assistance grants awarded in 2006, amounting to $166,320, we reviewed a
   judgmental sample of five grant awards for a total of $29,758.




                                        5
                                      RESULTS

CDRLF LOANS

As of December 31, 2006, there were 70 CDRLF credit union loans outstanding with a
total cumulative balance of $7,387,171. A judgmental sample of ten loans outstanding
was selected for review with a total cumulative balance of $1,502,100 as of December
31, 2006. All of the sampled loans were loans awarded to federally chartered credit
unions.

                                        Eligibility

To qualify for a CDRLF loan, a credit union must be designated as a low income credit
union by NCUA or the appropriate state supervisory authority. For our review, all ten
sampled federally charted credit unions were low income designated credit unions.

                                    Loan Application

Credit unions may file CDRLF loan applications in hard copy or on-line (electronically).
To qualify for a loan, a credit union must:
   • Demonstrate a sound financial condition;
   • Demonstrate management ability;
   • Provide a recent balance sheet and income statement;
   • Provide recent loan delinquency and allowance for loan loss schedules;
   • Provide a UCC-1 Security Agreement, if applicable;
   • Provide a matching shares agreement, if applicable;
   • Provide an 18 month strategic plan; and
   • Provide a community needs plan.

An OSCUI analyst reviews the applications, analyzes them, and makes a
recommendation to the OSCUI Director for approval. After the OSCUI Director
approves the application, OSCUI forwards the loan request to the appropriate NCUA
regional office for concurrence. While final loan approval does not require regional
office concurrence, all ten sampled loan approvals in our review received regional office
concurrence.

                                  Award Determinations

Two loan applications listed operating expenses as uses for the loan proceeds. OSCUI
staff stated that loan proceeds may be used for operating expenses. In one case, the credit
union intended to use CDRLF loan proceeds to expand services, add staff, and fund
loans. The application did not specify to what extent the proceeds would be used for
each of these endeavors.




                                            6
In the second case, loan proceeds were to fund loan demand, operating expenses, and
purchase a printer. The application did not specify to what extent the proceeds would be
used for each. Because operating expenses tend to be a recurring expense (use of funds),
it does not seem to be a prudent business practice to fund them with a five year term loan.

We realize that the CDRLF has a history of providing funding to credit unions wishing to
invest CDRLF proceeds, thereby earning income (arbitrage) from their investment,
achieving financial growth, and using the income to cover the costs of member basic
financial services. However, the CDRLF loan proceeds should not be used to directly
fund operating expenses.

RECOMMENDATION #1: OSCUI should ensure that award recipients do not use
finite term CDRLF loans to fund credit union operating expenses.

Management Response: Disagree – CDRL awards loans and establishes maturity dates
to allow credit unions to minimize the financial impact of adding or improving services to
members. The cost of the service will be subsequently covered by income earned from
the addition of the service. Allowing credit unions to use CDRLF loans for operating
expenses assists the credit union in providing financial services and improving its
financial condition through arbitrage. Providing services and improving the credit
union’s financial condition are within the purpose and objectives of Part 705 Rules and
Regulations. Furthermore, the use of the Fund for operating expenses is not prohibited
by the regulation. Using loans for operating expenses has not caused safety and
soundness concerns.

OIG Response: We realize that using the loan funds is not prohibited by the rules and
regulations. However it is not good business practices to use the loan funds solely for the
purpose of operating expenses. Our recommendation is not addressing CDRLF funds
that are invested in a program or service whereby the income generated from that
program or service is used to pay for the programs expenses. We are addressing the issue
where the CDRLF loan purpose and the use of funds is to directly pay for operating
expenses.

RECOMMENDATION #2: Loan agreements should specify the purpose of the loan.

Management Response: Agree – The office will work with the CDRLF’s legal counsel
to determine the most appropriate means for clarifying the loan purpose.

OIG Response: We agree with the action proposed.


Seven loan applications listed funding of member loans as the use for the CDRLF loan
proceeds. However, several of these credit unions had NCUA examination issues
relating to loans.




                                            7
In the first case, the purpose of the loan was to lend funds to members and acquire
participations in order to generate income to fund an ATM program. However, the
NCUA examination revealed that the loan participation policy was rather broad. In
addition, an accompanying Document of Resolution (DOR) noted problems with
profitability, loan delinquency, and charge-offs with member business loans. Moreover,
the CDRLF loan application did not specify what type of loans or amounts were planned
for. OSCUI addressed these problems by not funding the full amount requested by the
credit union.

 In a second credit union, the NCUA examination noted a problem with liquidity.
Specifically, it stated there was a need for a liquidity contingency plan. However, the
credit union’s application for the CDLRF loan did not address this issue.

In a third credit union, the NCUA examination noted that the credit union loan policy did
not agree with actual loan procedures. In addition, the examination indicated that the
credit union had shown negative share and loan growth, and the strategic plan lacked
specific goals for the next two to three years.

In a fourth credit union, the NCUA examination showed that strategic risk was high in
the credit union due to ineffective loan marketing, high operating expenses, and elevated
loan charge-offs. OSCUI addressed these problems by not funding the full amount
requested by the credit union, and noted that the region had upgraded this credit union to
a CAMEL 2.

We recognize that prior to awarding a CDRLF loan; CDRLF conducts an independent
analysis of the financial condition of the credit union and contacts the region for their
review and concurrence. OSCUI management told us that in instances where the credit
unions financial condition or stated funds do not support the full amount of the loan
requested, CDRLF either defers the entire amount or a portion of the loan until issues are
resolved. While we believe this is a good practice, we concluded that it is not a prudent
business practice to award CDRLF loans to credit unions that plan to use the loan
proceeds to fund member loans, when the credit unions have existing examination issues
related to credit union lending programs. In addition, it is a prudent lending practice for
the credit union application to specify the type and amount of loans for which it seeks
funding.

RECOMMENDATION #3: Prior to awarding a CDRLF loan to a credit union, OSCUI
should require the credit union to demonstrate that it has resolved any “loan purpose” (i.e.
lending program) issues.

Management Response: Disagree – CDRLF’s current system adequately addresses the
objective stated above. Prior to awarding a CDRLF loan: 1) CDRLF conducts an
independent anaysis of the financial condition of the credit union, which includes
reviewing the examination reports, CAMEL Codes, and Financial Performance Reports.
2) CDRLF contacts the region which has oversight responsibility for the low-income
credit unions for their independent review and concurrence. 3) Region performs an




                                             8
independent assessment of the credit union’s current financial condition and operation,
and sends a memorandum noting its concurrence or concerns with the loan.

OIG Response: The report demonstrates that loan purpose issues, in this case member
loans, were not considered in a prudent manner when making CDRLF loans. It is not a
good business practice to loan CDRLF funds for a credit union program or service that
has unresolved examination issues related to that program or service. Our examples in
this report show that it is not prudent to lend CDRLF funds to credit unions with
ineffective lending policies, or that already had difficulty generating member loans and
there is a problem with collections of current loans. Although management disagrees
with the recommendation the actions stated in the disagreement are the corrective actions
we would want to see to fix the current situation. So it appears corrective action is being
taken.

RECOMMENDATION #4: OSCUI should ensure that CDRLF loan applications
specify the member loan types and amounts when the stated purpose is to fund member
loans.

Management Response: “Addressed in 2007”

OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “The 2007 edition of the application includes a section that
requires credit unions to indicate anticipated changes in the following areas: assets,
shares, loans, member business loans, average share balances and membership. In
addition, the loan application requires that the LICU describe how they will use the loan
to serve the community needs. CDRLF will review the current loan application to
determine the most appropriate means for expanding beyond the two loan types already
noted on the loan application”. We agree with this action taken as it addresses our
recommendation.


Loan applications we reviewed required credit unions to submit 18 month strategic
plans. Three of the ten sampled credit unions submitted only one year “strategic plans”.
We were informed by OSCUI management that CDRLF’s 2007 edition of the loan
application does not require a credit union to submit strategic plans; however, it does
require many elements of a business plan and it helps guide these credit unions through
the process.

Credit unions are also required to submit Community Needs Plans. We found that five
of the ten plans submitted were lacking in specifics. While these plans discussed in
general what the CDRLP loan was to be used for, they were lacking in the specific dollar
usages (i.e. types of loans), how the credit union plans to accomplish their objectives, and
the measurement of directly related results.




                                             9
At our exit conference, OSCUI management informed us that the 2007 loan application
has been revised to obtain specific needed information and includes a “Community
Needs” section which requires the applicant to describe the needs of the community and
how the loan will serve those needs.

RECOMMENDATION #5: The credit union Community Needs plan should list
specifically how the loan will be used over the life of the loan (usually five years) and
project meaningful results oriented outcomes related to the specific purpose of the loan.

Management Response: “Addressed in 2007”

OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “CDRLF has found that the term “Community Needs Plan” is
not widely recognized and causes applicant confusion. Therefore, loan applications were
revised in April 2007 to obtain specific needed information. The current 2007 loan
application has a section “Community Needs” which requires the applicant to describe
the needs of the community and how the loan will serve those needs. The loan
application also has another section [Business/Strategic Plans] which describes growth
goals that mirror CDRLF’s five performance measures. These five performance
measures are primarily the same performance goals that OMB has accepted as
performance measures/outcome goals for the CDRLF program as a whole. The CDRLF
will continue to evaluate and modify the loan application to ensure that information
regarding the outcome can be measured and monitored. In addition, the CDRLF will
continue to receive annual loan summaries that follow-up on the credit union’s success in
meeting the community’s needs”. We agree with this action taken as it addresses our
recommendation.


In reviewing a CDLRF application, OSCUI also performs an analysis of various credit
union factors. A credit union must obtain a score of 100 out of a maximum of 180 score
factors to qualify for a CDRLF loan. The following discusses the six analysis sections of
OSCUI’s rating form:
    • The General section lists the purpose of the loan and limits the maximum loan
        amount qualification based on CAMEL rating, number of years since the credit
        union was chartered, and the net worth ratio of the credit union.
    • The Financial and Operational Capacity section rates the credit union’s net worth
        ratio, delinquent loan ratio, loan charge-off ratio, operating expense ratio, return
        on asset ratio and total loans to shares ratio. The total maximum score is 30. The
        maximum score may be obtained with net worth (7%+) and operating expense
        (4%+) ratios, when these standards are below peer (16.5%, 3.89% respectively)
        for all low-income credit unions.
    • The Management section rates the credit union Board’s ability to manage and
        plan. The total maximum score is 35. Two of the ten sampled credit unions
        obtained high management ratings despite one having a CAMEL 3 management
        component and the other credit union having management DOR issues.




                                             10
    •   The Compliance section rates the credit union’s regulatory compliance. The total
        maximum score is 25. One of the sampled credit unions obtained the highest
        rating despite having multiple DOR compliance issues.
    •   The Demonstrated Need section rates projected financial improvements, impact
        on the credit union and its members, and reason why the credit union can’t fund
        the project. The total maximum score is 40. The ratings for improvement and
        impact provide no monetary guidelines for scoring (e.g., number of new
        members, income generated, dividends paid etc.).
    •   The Outreach section rates the credit union’s loan and share types, percentage of
        members to total members, developmental services, partnerships with other
        agencies, matching fund requirements, percentage of loan and share growth, and
        the community needs plan. The total maximum score is 50.

We also noted that there is no analysis section that requires OSCUI to rate credit unions’
performance/compliance on previous CDRLF loans or grants. This seems to be a
significant omission. In the examples above we have shown that the high score for
individual categories within the current rating system is easily achievable.

RECOMMENDATION #6: The OSCUI rating system should be refined to provide
meaningful distinction between scores assigned to credit unions.

Management Response: “Addressed in 2007”

OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “CDRLF will further refine the evaluation system without
causing additional resource burden during the evaluation of the loan applications”. We
agree with this action taken as it addresses our recommendation.


                                         Monitoring

According to the signed note payable agreements that awardee credit unions
execute, annual progress reports are due by June 30 of each year. Six of the ten
sampled credit unions failed to file annual progress reports. Of the other four sampled
credit unions, their annual progress reports lacked specifics (statistics etc.) related to the
purpose of the loan.

Without annual progress reports the effectiveness of the loan programs and compliance
with the loan terms can not be determined.

RECOMMENDATION #7: Enforce the requirement of filing annual progress reports
and require specific outcome measures related to the loan purpose.

Management Response: “Addressed in 2007”




                                              11
OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “There is some confusion regarding the term “Community
Needs Plan.” The plans were inconsistent and often did not provide the information
needed. To ensure consistency and more meaningful information, CDRLF developed a
standardized format as reflected in the “CDRLF Loan Summary.” In addition,
management stated “The CDRLF will update the Loan Summary to include additional
quantifiable measures and future loan agreements will be updated to eliminate the
submission of documents that can be obtained from other computerized sources”. We
agree with this action taken as it addresses our recommendation.


According to the note payable agreement, a late charge of five percent of principal and
interest will be imposed on the 11th calendar day following the CDRLF loan payment due
date. No late fee was charged for three credit unions that had at least one payment 11
days past due.

RECOMMENDATION #8: Enforce the late charge requirement in accordance with the
note payable agreement.

Management Response: Agree. Estimated date is early 2009. CDRLF will make
changes to the late fee calculation in the loan system concurrent with the agency’s
conversion to a new data processing and general ledger system.

OIG Response: We agree with the planned action.


                                       Loan Terms

OSCUI uses a standard loan form for all of the CDRLF loans. Although the loan form
discusses payment terms and OSCUI provides payment schedules, the loan form does not
explicitly state a loan maturity date. Moreover, the CDRLF loan form does not state the
purpose of the loan. Information regarding these two loan features would strengthen loan
enforcement and communicate more clearly the terms of the loan.

RECOMMENDATION #9: Consider incorporating the loan maturity date and purpose
of the loan into the loan agreement.

Management Response: Agree. Estimated date for action is August 2008. The office
will add the loan maturity date on the credit union’s loan agreement.

OIG Response: We agree with the planned action.


The loan agreement cites NCUA Rules and Regulations relating to the requirement that
the credit union match share deposits with the loan amount. The loan terms also state




                                           12
that a loan breach occurs when there is a “. . .failure to assist in the perfection of the
security interest. . . .” OSCUI stated that starting in 2007, they no longer required the
matching provision and that securing the loan was at the discretion of OSCUI. Four of
the ten sampled credit unions did not require matching agreements. Nine of the sampled
credit unions had unsecured loans. These two provisions appear to be prudent lending
practices.

OSCUI management stated at our exit conference that making a credit union match a loan
with deposits should remain an option not a requirement. If this is managements
contention then it should seek revision of Section 705.7(a)(1). In addition, management
believes that securing a loan should remain an option, not a requirement.

RECOMMENDATION #10: Consider reinstating the requirements for matching funds
and collateralizing loans to encourage credit union self sufficiency and protection against
defaulted loans.

Management response: Disagree. Management’s complete response is in the appendix
of this report. In summary, management stated “Matching funds and collateralizing of
loans should remain an election of OSCUI when administering the loan program. During
the annual review of the loan process, and more often if needed, requiring matching funds
or collateralization for CDRLF loans will be considered.” “The option of Matching
Funds was developed to encourage credit unions’ self sufficiency; however, our
experience shows that matching often has the opposite effect.” “CDRLF had planned to
review the matching funds option for the next loan funding round, scheduled for the third
quarter of 2008. During its annual review, CDRLF will revisit loan collateralization.”

OIG Response: The NUCA Rules and Regulations are written indicating that it should
be a normal practice to require matching funds. Collateralizing loans is a prudent
business practice to protect a lender. If management believes that matching funds is not
working as intended and has the opposite effect then the NCUA Rules and Regulations
should be revised to reflect the current conditions.

CDRLF Technical Assistance Grants

There were 402 grants awarded, for a total of $1,371,130 during 2006. These grants
reflected the six separate TAG initiatives established by the agency for CDRLF grants. A
judgmental sample of five grant awards per initiative was selected for review, for a total
of 30 grants. The total sampled grant awards amounted to $125,502. As described in
greater detail above, the following were the six grant initiatives in 2006:

   •   Building Internal Capacity
   •   Outreach Partnering
   •   Urgent Needs and Disaster Recovery
   •   Staff, Official, Board Training
   •   Voluntary Income Tax Initiative
   •   Student Internships



                                            13
                                         Eligibility

To qualify for a CDRLF TAG, a credit union must be designated as a low income credit
union by NCUA or the appropriate state supervisory authority. We sampled 30 federally
insured credit unions, all of which were designated low income.

                                       Applications

Applications can be filed by credit unions in hard copy or electronic form. An OSCUI
analyst reviews the applications, analyzes them, and makes a recommendation to the
OSCUI Director for approval. Grant funds are disbursed to credit unions on an expense
reimbursement basis. Credit unions are required to file for expense reimbursement and
provide an outcome summary report by a certain date, specified in the grant award letter.

For the Building Internal Capacity and Staff, Official, Board Training initiatives, the
TAG applications request information describing the project, cost of the project with
attached vendor bids, how the grant will improve operations of the credit union, and how
it will improve and measure the quality of financial services to members or stimulate
economic activities in the community. Our review noted that one of the five sampled
training grants for this initiative did not have an application or OSCUI analysis on file.

The Outreach and Partnering initiative grant application requests information on other
entity partnering relationships in addition to the information requested (see above) for the
Building Internal Capacity grant. Three out of five sampled credit unions had vendor bid
amounts that did not agree with the grant proposed amounts. Two of the five sampled
credit unions had performance measures that were not outcome oriented. One had very
general outcomes and the other had measured outputs (number of brochures) and not
outcomes (number of new members).

The grant application for the Urgent Needs initiative requests information describing
what constitutes an immediate and pressing need to ensure the continued growth and
viability of a credit union. As with the Outreach and Partnering initiative application, the
Urgent Needs initiative application also requests the additional information required in
the Building Internal Capacity application.

One of the five sampled applications for this initiative lacked support for the vendor bid
amount. One grant was approved for worn carpet and tile replacement, which was
originally disapproved by the OSCUI reviewer. The grant was subsequently approved by
the OSCUI Director for $3,500, $500 over the stated maximum amount ($3,000) allowed,
according to the terms of the application. Another grant that was approved, for an opinion
audit, was a repeat DOR item for the applicant credit union.

The Student Internship application requests a student intern application form, including
a student resume, along with a letter from a college counselor, advisor, or dean,




                                             14
indicating that the student is currently enrolled at the institution. This is in addition to the
information requested on the Building Internal Capacity grant application. Two of the
five sampled credit unions with TAGS for this initiative did not have a letter from the
college indicating student enrollment. One credit union file had an illegible e-mail and
the other had a listing of courses taken by the student. Three of the five sampled credit
unions had CAMEL management component ratings of 3. While one credit union
appeared to have the ability to self fund the program, this was not a grant determining
criteria.

The Voluntary Income Tax Assistance grant application requests the credit union’s
Internal Revenue Service (IRS) filer number, in addition to the information requested
under the Building Internal Capacity grant application. One credit union appeared to
have the ability to self fund the program. Again we found that this was not considered a
grant determining criteria. Two credit unions did not file their IRS filer number.

RECOMMENDATION #11: Grant awards should not be issued until all application
requirements are completed.

Management Response: “Addressed in 2007.”

OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “CDRLF will review grant awards to ensure all conditions are
met prior to making a disbursement.” We agree with this action taken as it addresses our
recommendation.


RECOMMENDATION #12: Grants should not be awarded unless the applicant credit
union demonstrates a need for the funds (inability to self fund).

Management Response: Disagree. “Our grant guidelines provide a list of several
criteria both financial and non-financial used to evaluate grant applications, as
appropriate. Rarely are grants awarded based on a single criterion. Depending on the
amount of grant monies requested and the amount of grant funds available, “ability to
Fund” may become more or less prominent in our decision to approve the grant.”

OIG Response: We still believe where competition between credit unions is involved
the credit union with the greater needs should be awarded the grant. That is the basis for
the program.


                                            Award

OSCUI performs an analysis of grant applications. Part of this analysis includes a
scoring system based upon certain financial and non-financial factors. The maximum
score that can be obtained is 100. According to OSCUI, the results of the scoring system




                                              15
have not generated a desired “bell curve” and, therefore, this system is not necessarily the
decisive factor for an award. For instance, previous grant funding may be a more
important factor depending on the availability of funds compared to the dollars applied
for. OSCUI staff stated that they are still trying to refine the scoring system so that the
results are more like a “bell curve”. OSCUI prepares a summary of financial and non-
financial factors that summarizes the application and makes a recommendation for
approval/disapproval. On some grants, this is the only analysis and does not include the
scoring system analysis. It should be noted that the ratings/recommendation do not
consider previous CDRLF grant or loan compliance or impact/success.

The financial section of the analysis scores CAMEL ratings, net worth ratio, delinquency
ratio, and return on assets. This section accounts for 20 of the total 100 maximum points.
The financial section does not consider operating expense ratios. The highest rating may
be obtained for CAMEL ratings 1 through 3. The highest rating for net worth may be
obtained with a net worth ratio of six percent when peer for low income credit unions is
16.5%. The highest rating for delinquency may be obtained with a delinquency ratio of
seven percent, when peer for low income credit unions is 2.02%.

The non-financial section of the analysis scores management, purpose, impact, previous
funding, ability to fund, and partnerships. This section accounts for 80 of the 100
maximum points. The maximum score for management can be obtained with a CAMEL
composite rating of 3 in management. The purpose of the grant is scored on whether it
coincides with the objectives of the CDRLF. However, it would appear that this would
be more appropriate as a pass/fail criteria. Previous funding is scored, but does not
necessarily reflect the decision process as discussed above. Ability of the credit union to
fund the project is also scored. Again, it would appear that this may also be more
appropriate to rate as a pass/fail criteria. Scores are received for credit unions which
receive funds from other entities.

RECOMMENDATION #13: The OSCUI rating system should be refined to include
factors OSCUI deems appropriate for rating grant applications. Once established, these
factors should then be followed in the analysis and rating of the grants.

Management Response: “Addressed in 2007.”

OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “The Office has refined the evaluation criteria several times
throughout the last year. Revisions to the criteria are based on annual funding
objectives, the demand for grants, availability of grant monies, experience with previous
funding rounds, OMB revisions/priorities, and other internal and external factors.
CDRLF will continue to refine evaluation factors and criteria for the grant rounds.” We
agree with this action taken as it addresses our recommendation.




                                            16
                                       Monitoring

Credit unions which are TAG grantees must prepare and submit to OSCUI
Outcome summary reports at the end of the project. A specific date is provided, in the
grant award letter for the filing of outcome summary reports and grant expense
reimbursement.

Two of the five sampled credit unions for the Building Internal Capacity grant initiative
did not file outcome summary reports.

Two of the five sampled credit unions for the Outreach and Partnering grant initiative
did not file outcome summary reports.

Three of the five sampled credit unions for the Urgent Needs grant initiative did not file
outcome summary reports. According to OSCUI staff, an outcome summary report is
generally not requested for and Urgent Needs grant and it was not required in the grant
award letter.

None of the sampled credit unions for the Training grant initiative filed an outcome
summary report. According to OSCUI staff, it would be difficult to measure success of
training.

Upon conclusion of the Student Internship grant period, the credit union and student
must complete evaluations providing an assessment of the program. In addition, the
credit union must file a certification of the business days worked. All five of the sampled
credit unions with grants for this initiative completed these requirements. The purpose of
the Student Internship grant is designed to provide low income credit unions an
opportunity to introduce college students to credit unions and credit union operations, in
order to potentially recruit and develop the next generation of credit union managers.
However, OSCUI does not monitor how many student interns have entered into
employment with credit unions upon graduation.

Two of the sampled Voluntary Income Tax initiative outcome summary reports were
filed late. One was filed one day late, the other five months late. Although, OSCUI does
obtain some IRS filing statistics on the program’s credit unions, these are for
Congressional reporting purposes and not for credit union verification purposes.
However, the statistics reported by the credit unions constituted an excellent outcome
summary report. These statistics reported, among other things, the number of returns
filed, the amount of earned income credits, and number of new members obtained.

RECOMMENDTION #14: Require credit unions to file meaningful outcome summary
reports prior to disbursing expense reimbursements.

Management Response: “Addressed in 2007.”




                                            17
OIG Response: The scope of our audit tested Grants and Loans that were completed at
the time of fieldwork which were those issued in 2006. Management explained in a draft
response to this report that “OSCUI has developed a form for credit unions to summarize
the outcome of their grants, so that information is received in a consistent format,
enabling the Office to store and retrieve the information from a database. Prior to 2007,
the Office did not consistently require credit unions to submit a summary. For grants
awarded in 2007, credit unions are required to submit summary forms at the time they
request reimbursement. The Office has also begun to monitor the status of the outcome
summaries through its databases. Additionally, in 2008, the Office added a paragraph to
the grant application guidelines stating that credit unions not submitting summaries may
be denied future grants.” We agree with this action taken as it addresses our
recommendation.




                                           18
     APPENDIX




19
20
21
22
